            Office of Inspector General




                                    September 19, 2006

                                    SUSAN M. PLONKEY
                                    VICE PRESIDENT, CUSTOMER SERVICE

                                    SUBJECT: Management Advisory Report – Postal
                                             Service’s Use of Ghost Numbers
                                             (Report Number MS-MA-06-002)

                                    This report presents the results of our self-initiated review of
                                    the U.S. Postal Service’s use of ghost numbers (Project
                                    Number 06YZ001MS000). The review resulted from a
                                    complaint the U.S. Postal Service Office of Inspector
                                    General (OIG) received from a mail service provider (MSP)
                                    regarding the Postal Service’s practice of collecting and
                                    using information identifying mail owners.

Results in Brief                    The Postal Service could improve its collection and use of
                                    customer information. Specifically, the Postal Service
                                    should clarify mail acceptance procedures and revise Postal
                                    Service (PS) Form 3615, Mailing Permit Application and
                                    Customer Profile, to include a Privacy Notice statement that
                                    would make public the intended use of customer data
                                    collected. Management agreed with our findings and
                                    recommendations and has initiatives in progress or planned
                                    addressing the issues in this report. Management’s
                                    comments, in their entirety, are included in the appendix.

Background                          Business Mail Entry Unit (BMEU) clerks create ghost permit
                                    numbers to identify mail owners when no permit number is
                                    associated with mail owners’ names in PostalOne!.1 MSPs,
                                    or “letter shops,” specialize in preparing mailings for
                                    customers. Some MSPs conduct the entire mail process,


1
  The PostalOne!® system, designed exclusively for business mailers, offers a web-based alternative to existing
manual mailing processes. The system links a customer's mailing information electronically with Postal Service
acceptance, verification, and payment systems, eliminating most of the paperwork. It also provides online information
that customers can use to manage their businesses more efficiently.
Postal Service’s Use of                                                                                  MS-MA-06-002
 Ghost Numbers


                                   from printing mailpieces to depositing them into the
                                   mailstream, while others presort and mail under the MSP’s
                                   permit number so that customers do not have to invest in
                                   software or equipment. MSPs may combine their
                                   customers’ mail to take advantage of lower postage rates,
                                   such as bulk rates.

                                   MSPs must file PS Form 3615 for a permit number at each
                                   Postal Service office of mailing. The PS Form 3615
                                   requires mailers to provide the permit applicant’s name,
                                   address, contact person, and telephone number. The form
                                   is available at usps.com, local post offices, mailing
                                   requirements offices, and BMEUs. This form is completed
                                   and filed only in hard copy. Mailers cannot process their
                                   permit requests online via the usps.com website.

                                   When an MSP presents a mailing, mail acceptance clerks
                                   verify that the postage statement2 is complete and includes
                                   appropriate documentation. A completed postage
                                   statement lists the name and permit number of the MSP in
                                   the “By” field (if the MSP is using its own permit number),
                                   and the name and actual permit number or ghost permit
                                   number of the mail owner in the “For” field. The Postal
                                   Service uses these fields on postage statements for
                                   marketing purposes, and to track mail volume and sales
                                   revenue by customer. Ghost permit number information has
                                   no financial statement or Cost and Revenue Analysis
                                   (CRA)3 impact.

                                   Between November 2004 and June 2006, a member of the
                                   mailing industry (an MSP) complained to Postal Service
                                   officials and the OIG about the Postal Service Sales teams
                                   using ghost permit number information to market to
                                   customers that the MSP considered its own.

Objectives, Scope,                 Our objectives were to determine:
and Methodology
                                  •    What policies or regulations govern the Postal Service’s
                                       collection and use of MSP customer data.


2
  A postage statement is a document provided by a mailer to the Postal Service that reports the volume of mail being
presented and the postage payable or affixed, and certifies that the mail meets the applicable eligibility standards for
the rate claimed.
3
  The CRA report presents Postal Service estimates of revenues, costs, and volumes for each class and subclass of
mail and mail service.




                                                           2
Postal Service’s Use of                                                       MS-MA-06-002
 Ghost Numbers


                          •   Why the Postal Service has collected MSP customer
                              data and how it has been used.

                          •   What the Postal Service has done to address industry
                              concerns about its use of MSP customer data.

                          We reviewed applicable sections of the Postal Service’s
                          Domestic Mail Manual and International Mail Manual;
                          Handbooks DM-109, Business Mail Acceptance, and
                          AS-353, Guide to Privacy and the Freedom of Information
                          Act; policy letters; PS Form 3615; and postage statements.
                          We obtained legal advice from the OIG’s General Counsel,
                          and interviewed Postal Service officials in the General
                          Counsel, Consumer Affairs, and Public Affairs and
                          Communications offices, as well as Marketing’s Customer
                          Service and Sales departments. We did not conduct tests
                          of internal controls because of the limited scope of our
                          review and did not rely on any computer-generated data to
                          support our report.

                          We conducted this review from November 2005 through
                          September 2006 in accordance with the President’s Council
                          on Integrity and Efficiency, Quality Standards for
                          Inspections. The scope of our inspection covered the
                          period from November 2004 through May 2006. We
                          discussed our observations and conclusions with
                          management officials and included their comments where
                          appropriate.

Prior Audit Coverage      We did not identify any prior audits or reviews related to the
                          objectives of this inspection.

Acceptance Clerks    Handbook DM-109 does not provide guidance on the
Need Better Guidance procedures Postal Service mail acceptance clerks are to
                     follow if an MSP refuses to provide the requested mail
                     owner information when submitting a postage statement.

                          Handbook DM-109, Chapter 4 (August 1999, updated with
                          Postal Bulletin articles through March 17, 2005) provides
                          the verification procedures that mail acceptance clerks are
                          to follow when accepting a mailing.




                                            3
Postal Service’s Use of                                                          MS-MA-06-002
 Ghost Numbers



                          Handbook DM-109, Appendix G states:

                                 . . . The by/for fields on postage statements are necessary
                                 in order to track our sales revenue by customer. When a
                                 mailing is submitted, the clerk reviews the statement to
                                 ensure the by/for field has been filled in, if applicable.

                          Postal Service management requested and received a legal
                          review of changes to Handbook DM-109. Postal Service
                          General Counsel, as part of its response to Postal Service
                          management, asked whether management had considered
                          or issued any new guidance regarding MSPs’ refusal to
                          provide correct customer information about the identity of
                          the mail owner in the “For” field of the postage statement.
                          The most recent draft revision of Handbook DM-109 does
                          not address the General Counsel’s inquiry. Postal Service
                          management told the OIG there was no point in obtaining a
                          legal opinion about compelling MSPs to provide information,
                          as the Postal Service would not impose a penalty for an
                          MSP not providing customer information.

                          Not having guidance could lead to inconsistent acceptance
                          procedures if the MSPs’ postage statements do not provide
                          the requested mail owner information in the “For” field.
                          Further, Postal Service Marketing may not be able to
                          properly allocate and assign revenue to both the mailing
                          agent and the mail owner.

Recommendation            We recommend the Vice President, Customer Service:

                          1. Include in the revision to Handbook DM-109, Business
                             Mail Acceptance, the procedures that mail acceptance
                             clerks should follow if a mail service provider refuses to
                             provide a completed postage statement containing the
                             correct customer information.

Management’s              Management concurred with the finding and
Comments                  recommendation, and stated the revision of the Handbook
                          DM-109 will instruct acceptance clerks to assume the
                          mailing is that of the permit holder if the postage statement
                          does not give the mail owner’s name.




                                             4
Postal Service’s Use of                                                                         MS-MA-06-002
 Ghost Numbers




Evaluation of                        Management’s comments are responsive to the
Management’s                         recommendation. However, because the Postal Service will
Comments                             not mandate that MSPs provide customer information, the
                                     revised instructions to acceptance clerks will still allow for
                                     improper revenue allocation between the mailing agent and
                                     mail owner. Since management is providing the guidance
                                     as recommended, we do not plan to pursue this through the
                                     formal audit resolution process.

Customers Need                       The Postal Service collects and uses customer information
Adequate Privacy                     for marketing purposes without proper customer notification.
Notification                         Specifically, the Postal Service does not provide adequate
                                     privacy notification to customers who apply for mailing
                                     permits. Although the Postal Service has incorporated
                                     Privacy Notice statements4 on all postage statements, PS
                                     Form 3615 does not include a Privacy Notice statement that
                                     refers to the Privacy Policy.

                                     The Postal Service Privacy Policy is located at usps.com,
                                     and provides information regarding the uses of information
                                     collected from customers, stating in part:

                                              . . . Our privacy policy tells you about our information
                                              practices when you provide personal information to us,
                                              whether collected online or offline, or when you visit us
                                              online to browse, obtain information, or conduct a
                                              transaction . . . The Postal Service collects personal
                                              information from you and from your transactions with us.
                                              We use information we collect to provide you certain
                                              products and services, and if needed to respond to your
                                              inquiries or requests for information. We occasionally
                                              collect data about you from financial entities to perform
                                              verification services and from commercial sources. We do
                                              this, for example, to prepopulate data fields in call centers
                                              to facilitate transactions, or to market products to
                                              consumers who have agreed to receive such
                                              messages . . . If you are a business, we use an opt-out
                                              standard. We assume you are interested in other
                                              products and services that could aid you in your business,
                                              and so we will provide information to you unless you tell
                                              us you do not want to receive it.




4
    Privacy Notice statements refer mailers to the Privacy Policy link on usps.com.




                                                             5
Postal Service’s Use of                                                           MS-MA-06-002
 Ghost Numbers



                          Existing applicable policy includes Handbook AS-353,
                          Section 3-2.2, which states in part:

                                . . . When the Postal Service asks customers . . . to
                                provide information about themselves, and that
                                information is maintained in a system of records, the
                                Postal Service must provide an appropriate privacy notice
                                . . . The Privacy Office must approve all new forms (hard
                                copy and electronic) that collect customer . . . information.
                                This includes hard copy and electronic forms, new forms,
                                and forms scheduled for revision and reprinting.

                          However, according to Handbook AS-353, Section 3-2.2.b
                          (2):

                                . . . For business customers, the notice is a statement that
                                the customer privacy policy is available on usps.com.

                          When the Postal Service does not provide adequate privacy
                          notification, customers applying for mailing permits are not
                          adequately informed of the Postal Service’s policy and the
                          intended uses of customer information, as well as its
                          requirements to safeguard customers’ records. By not
                          disclosing the intended use of its customers’ information,
                          the Postal Service incurs a risk of further complaints,
                          possible legal action from both MSPs and mail owners, and
                          harm to the Postal Service brand.

Management Revised        In 2005, Postal Service management began revising
Internal Policy in Part   Handbook DM-109 to clarify internal business mail
to Address Industry       acceptance policies and procedures. At the time of our
Concerns                  review, management planned to issue the final revised
                          handbook in August 2006. As part of this revision,
                          management requested and received, in September 2005, a
                          legal review of changes to Handbook DM-109. Changes to
                          the handbook include the conversion from the Permit
                          System to the PostalOne! ® system and the addition of
                          language stating that the Postal Service can use customers’
                          information for marketing purposes.




                                            6
Postal Service’s Use of                                                        MS-MA-06-002
 Ghost Numbers




Recommendation            We recommend the Vice President, Customer Service:

                          2. Coordinate with the Privacy Office and the Information
                             Policies and Procedures Office to update Postal
                             Service Form 3615, Mailing Permit Application and
                             Customer Profile, by adding a Privacy Notice statement.

Management’s              Management concurred with the finding and
Comments                  recommendation, and stated that they added a privacy
                          statement to the PS Form 3615. Management is circulating
                          the revised form and expects to publish it no later than
                          September 2006.

Evaluation of             Management’s comments are responsive to the
Management’s              recommendation. Management’s actions taken and
Comments                  planned should correct the issues identified in the finding.

                          We appreciate the cooperation and courtesies provided by
                          your staff during the review. If you have any questions or
                          need additional information, please contact Robert Mitchell,
                          Director, Marketing, or me at (703) 248-2300.

                             E-Signed by Mary Demory
                          ERIFY authenticity with ApproveI




                          Mary W. Demory
                          Deputy Assistant Inspector General
                           for Headquarters Operations

                          Attachment

                          cc: Anita Bizzotto
                              Michael Altavilla
                              Sherry Suggs
                              Steven R. Phelps




                                            7
Postal Service’s Use of                                MS-MA-06-002
 Ghost Numbers


                     APPENDIX. MANAGEMENT’S COMMENTS




                                    8
